OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
HIGHER EDUCATION
PROJECT
AUDIT REPORT NO. 5-306-09-002-P
December 04, 2008




MANILA, PHILIPPINES

Office of Inspector General


December 4, 2008

MEMORANDUM

TO:       	         USAID/Afghanistan Mission Director, Michael Yates

FROM: 	             Acting Regional Inspector General/Manila, David A. Thomanek /s/

SUBJECT:	           Audit of USAID/Afghanistan’s     Higher   Education   Project     (Audit   Report
                    No. 5-306-09-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included the comments in their entirety in
appendix II.

This report contains four recommendations to assist the mission in improving its management
and oversight of the Higher Education Project. Based on the information provided by the
mission in response to the draft report, we determined that management decisions have been
reached on recommendation numbers one, two, and three. In addition, final action has been
taken on recommendation number four upon issuance of this report. A determination of final
action will be made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions for recommendation numbers one, two, and three.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


       Audit Objective .......................................................................................................... 4 


Audit Findings ................................................................................................................. 5 


Was USAID/Afghanistan’s Higher Education 

Project achieving its planned results, and
what has been the impact?

     Mission and Project
     Indicators Need Alignment .......................................................................................... 7 


     Mission Assistance Required
     For Ministry Collaboration ........................................................................................... 8 


     Sustainability Plan Needed 

     for Centers ................................................................................................................ 10 


     Improvements in Technical Oversight
     Necessary ................................................................................................................. 11 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Table A-1: Project Indicators and Cumulative Targets 

Through June 30 of the Fiscal Year Ending September 30, 2008............................. 22 

SUMMARY OF RESULTS

USAID and the Government of Afghanistan entered into a 5-year agreement that set out
their mutual objectives toward a better educated population in Afghanistan.
USAID/Afghanistan’s goal under its 5-year education strategy was to improve access to
quality education in Afghanistan. As part of this strategy, USAID/Afghanistan awarded a
5-year, $38 million cooperative agreement to the Academy for Educational Development
(implementer) to support its Afghanistan Higher Education Project (project). The project
supports the goal of improving access to quality education by improving the quality of
pre-service teacher education at 4-year institutions of higher education. The mission
expects this project to result in (1) the transformation of the instruction of teaching and
learning in faculties and departments of education in the 16 4-year postsecondary
institutions in Afghanistan and (2) institutionalized structures and systems in these same
institutions to support and sustain high-quality instruction and professionalism. By the
end of the project period, the 16 postsecondary institutions will take full responsibility for
the reformed systems and leadership in teacher training and support (see page 3).

The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s Higher Education Project was achieving planned results, and what
the impact had been (see page 4).

USAID/Afghanistan’s Higher Education Project partially achieved planned results toward
(1) transforming the instruction of teaching and learning in faculties and departments of
education and (2) institutionalizing structures and systems to support and sustain high-
quality instruction and professionalism. The implementer measured its progress against
nine objectives for which it met its target objectives for three, partially met the targets for
four and did not meet the targets for two (see page 5). The project made progress in
two areas in particular. First, project activities provided training to faculties that included
teaching methods, basic information technology skills, and graduate-level courses in
education. Second, project activities to transform institutional structures and systems
included workshops and seminars on institutional and leadership development. The
project also initiated the Afghan master’s degree program and trained several master’s
degree candidates in the United States. From an impact standpoint, faculty members
who participated in the project’s different activities were exposed to new and more
effective teaching methodologies being used in their classes. Also, faculty members
advanced their English language skills through the English courses provided and had
greater opportunities to access training and educational materials not available in their
local language (see pages 5-7).

Despite these accomplishments, the audit identified three areas that, if not addressed
during the last half of the project, will have a negative effect on the sustainability of the
project’s results (see pages 7-10). Finally, the audit identified that the mission’s
technical oversight of the project has fallen short of what is required by the agreement
and USAID’s policies (see page 11).

This report contains 4 recommendations to assist USAID/Afghanistan to improve its
oversight of the project (see pages 8, 9, 11, and 13). Based upon the mission’s comments
management decisions have been reached on the first three recommendations and final




                                                                                             1
action has been taken on the last one. The mission’s written comments are included as
appendix II to this report (see page 17).




                                                                                   2
BACKGROUND

USAID and the Government of Afghanistan entered into a 5-year agreement in
September 2005 that set a mutual objective toward a better educated population in
Afghanistan. At that time, Afghanistan had one of the world’s lowest percentages of
population in higher education at less than 0.15 percent. No university had what might
be considered a minimally acceptable number of books for a university library and most
important, faculty members had few opportunities in the prior 25 years to improve their
teaching methods and course content. Younger faculty members rarely had advanced
degrees, and many had graduated only from the secondary school in which they
presently taught, while veteran faculty members had received their training decades ago
with little opportunity to improve their skills and knowledge. Few in either group
possessed strong skills in a second international language, which hampered their ability
to access current educational materials and research.

USAID/Afghanistan’s goal under its education strategy was to improve access to quality
education in Afghanistan. To put this strategy into action, USAID/Afghanistan created
the Afghanistan Higher Education Project (project) and in January 2006 awarded a
5-year, $38 million cooperative agreement to the Academy for Educational Development
(implementer). The project is part of a program to rehabilitate and strengthen the
capacity of the education system and improve access to quality education throughout
Afghanistan. The project supports this objective by building sustainable capacity to
deliver high-quality pre-service1 and in-service teacher education for secondary school
teachers.

The project aims to strengthen both the individual and institutional capacity at the 16
institutions offering 4-year teacher education programs. The universities with education
faculties to be assisted are Kabul Education University, Kabul University, Herat
University, Balkh University, Kandahar University, and Nangarhar University, as well as
smaller universities in Badakshan, Baghlan, Bamiyan, Faryab, Joujzan, Khost, Kunduz,
Paktia, Parwan, and Takhar.

A key aspect of the project is to institutionalize structures and develop an academic
culture that supports high-quality teaching and professional activities. Focusing on the
16 4-year postsecondary institutions cited above, the mission expects this project to
result in (1) transformation of teaching instruction and learning in faculties and
departments of education and (2) institutionalized structures and systems to support and
sustain high-quality instruction and professionalism. By the end of the project period, the
16 4-year institutions are to take full responsibility for the reformed systems and
leadership in teacher training and support.

USAID/Afghanistan designed the project around two different components and the
implementer focused its resources on achieving nine different objectives. Appendix III
lists the nine objectives with the individual indicators and cumulative targets through
fiscal year 2008, for each objective and the status of achievement as of June 30, 2008.


1
 The term pre-service refers to students and graduates who have not begun teaching, while in-
service refers to those who have already entered the teaching profession.


                                                                                           3
As of June 30, 2008, the mission had obligated $23 million and disbursed $14 million in
support of this project.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2008 annual audit plan to answer the following question:

•	 Was USAID/Afghanistan’s Higher Education Project achieving its planned results,
   and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     4
AUDIT FINDINGS 

USAID/Afghanistan’s Higher Education Project (project) partially achieved its planned
results toward (1) transforming the instruction of teaching and learning in faculties and
departments of education and (2) institutionalizing structures and systems to support
and sustain high-quality instruction and professionalism. The Academy for Educational
Development (implementer) measured its progress against nine objectives. It met the
targets for three indicators, partially met the targets for four indicators and did not meet
the targets for two indicators.

As of June 30, 2008, 30 months into project implementation, the project had its principal
impact on individual faculty members. Faculty members who participated in the project’s
activities were exposed to new and more effective teaching methodologies. Also, the
English courses provided advanced their English language skills increasing opportunities
to access training and educational materials not available in the local language.

Where the project met and partially met its targets, it showed encouraging results. For
example, the project established professional development centers at 9 of the 16
universities. These centers were staffed with Afghan personnel and worked to increase
the adoption of improved pedagogical methods.




         Photograph of an English language training class being conducted at the
         Professional Development Center at Balkh University in Mazar, Afghanistan.
         (Office of Inspector General, August 2008)




                                                                                          5
Through these professional development centers, the project also provides ongoing
computer skill training to teach faculty members to use MS Windows programs: Word,
Excel, and Power Point. Thanks to the new skills learned through these centers, faculty
members stated that they can now prepare their class material using computer
applications. Increased English language proficiency has also allowed some to use the
Internet to search for professional development and educational resources as very few
educational resources are available in Dari, the main Afghan language.

One project objective is to increase the adoption of improved pedagogical methods.
Pedagogy is defined as the art or science of being a teacher and the use of formal
teaching strategies. The project delivers three different workshops in teaching methods:
(1) critical thinking, (2) syllabus design, and (3) course design. Faculty members
interviewed found each course beneficial and were now engaging students in lessons by
moving away from solely lecture-based teaching and introducing more participatory
teaching methods.

The project also implemented study-abroad activities to increase faculty members’ rigor
and depth of knowledge in content areas. These activities included U.S. and third-
country certificate and graduate degree programs in education. For example, 16 faculty
members completed the Singapore Certificate Program in Teaching English as a
Foreign Language. Further, a 1-day workshop was held for faculty members who
attended the Singapore program and were enrolled in a master’s degree program with
the University of Indiana to discuss how they can apply their new knowledge in their
classrooms.




            Photograph of faculty members who completed study abroad programs
            working together to discuss how to apply the learned teaching
            methodologies in their classrooms. Session took place in Kabul,
            Afghanistan. (Office of Inspector General, July 2008).


Despite the progress achieved in the first 30 months of project implementation, the audit
identified the following issues that the mission needs to address to further the results
and impact of the project: (1) the need to align project indicators of the mission and the



                                                                                        6
implementer, (2) the need to improve cooperation between the Afghanistan Ministries of
Education and Higher Education, (3) the need to identify how to sustain critical activities,
and (4) the need to improve mission technical oversight of the project. These issues are
further addressed below.

Mission and Project
Indicators Need Alignment
Summary: USAID policy states that missions should only collect and report on the
information that is most directly useful for performance management. The mission did
not align the implementer’s performance indicators with its own indicators to ensure that
the implementer’s monitoring and evaluation plan collected and reported the type of
information that is most directly useful for the mission’s performance management. This
occurred because the mission never officially approved the implementer’s monitoring
and evaluation plan, even though it had received the plan at the beginning of the project.
As a result, the mission has made repeated ad hoc requests for program performance
information from the implementer which diverts its efforts from programmatic issues.

USAID’s Automated Directives System 203.3.2.1 (d) states that missions should collect
and report only on the information that is most directly useful for performance
management. More information is not necessarily better because it markedly increases
the management burden and cost to collect and analyze. Further, missions should align
their performance information needs with those of their partners, thereby lessening the
reporting burden for partner organizations.         For example, the mission and its
implementing partners should jointly define critical performance indicators or incorporate
data collection directly into assistance and acquisition mechanisms. As well, missions
should ensure that reporting requirements are included in acquisition and assistance
instruments, and that partner reporting schedules provide information at the appropriate
times for Agency reporting.

The mission did not align the implementer’s performance indicators with its own
indicators to ensure that the implementer’s monitoring and evaluation plan collected and
reported the type of information that is most directly useful for the mission’s performance
management. The mission has one indicator for reporting on the Higher Education
Project: “Number of students enrolled in USAID-supported programs with faculties of
higher education.” This is the mission’s sole indicator for intermediate results under
increased access to quality education, whereas the implementer reports for nine
indicators under its seven project functional areas. The mission and implementer both
use quantitative performance measures, but use different measures to assess results.

The mission’s indicator is based on the assumption that data reported from the Higher
Education Project represent one person trained. By contrast, the implementer’s
methodology measures multiple discrete activities in which the same individual could
participate. For example, the implementer’s English language training program has 20
different modules. One individual who successfully completes each module will be
reported 20 times in the implementer’s quarterly results reporting and annual progress
reports. Further, if this same individual also successfully completes any of the computer
courses, pedagogy training sessions, or teacher content training sessions, the
implementer will count this individual under these discrete activities as well.



                                                                                          7
This misalignment between indicators occurred because the mission never officially
approved the implementer’s monitoring and evaluation plan, even though it had received
the plan. Therefore, the implementer operated on the assumption that its indicators
were acceptable and useful to the mission. As a result, the implementer designed and
operated a monitoring and evaluation system that does not efficiently meet the mission’s
needs for reporting, forcing implementing officials to devote additional resources to
satisfy ad hoc requests from the mission for additional progress data.

Because mission performance information needs are not aligned with the implementer’s
monitoring and evaluation plan, project resources are redirected from dealing with
programmatic issues to meeting the mission’s reporting needs. As a result, this audit
makes the following recommendation.

       Recommendation No. 1:            We recommend that USAID/Afghanistan
       determine the key indicators to measure and report results and revise the
       indicators at the implementer level, the mission level, or both, to more
       accurately link the activity data to the mission’s planned results.


Mission Assistance Required
For Ministry Collaboration
Summary: According to the mission’s agreement with its implementer, a critical
objective of sustaining the project’s results was the degree of coordination between
Afghanistan’s Ministry of Education and Ministry of Higher Education. The implementer
had made no progress in meeting any of its targets towards this objective as of
June 2008. No progress had been made because the mission’s technical staff
responsible for overseeing the project did not help the implementer open up lines of
communication between the two ministries, and there was a lack of continuity of
technical staff in overseeing this project. The resulting lack of collaboration between the
ministries could negatively affect sustainability of project results due to the interrelated
education segments managed by the two ministries.

A critical objective of sustaining results of the Higher Education Project was the degree
of coordination between Afghanistan’s Ministry of Education and Ministry of Higher
Education. At the time the project was awarded, there was little coordination between
these ministries; therefore, the project was to develop a plan to enhance collaboration
between them on common issues. These ministries have interdependent roles in
developing quality secondary-level education. The Ministry of Higher Education
manages the universities that prepare secondary-level teachers, and the Ministry of
Education prepares secondary-level students to attend university. For this reason, the
project’s cooperative agreement made coordination between these ministries a critical
objective that was essential for sustaining results.

The implementer had made no progress in meeting any of its targets for this objective as
of June 2008. The 2006 version of the implementer’s monitoring and evaluation plan
included an indicator to measure the number of collaborative events and initiatives
engaged in by the two ministries. Seven events were planned through the life of the
project with one each in 2006, 2009, and 2010 and two each year in 2007 and 2008.
However, the implementer’s 2007 and 2008 work plans reported that political tensions



                                                                                          8
between the ministries made cooperation between them slow and difficult. Ultimately,
the implementer reported that no progress was made through fiscal year 2008 and that
establishing collaboration between the ministries was not feasible. Therefore, the
implementer planned to cease pursuit of this objective and measurement of this activity.
The implementer reported that it assumed that USAID would undertake a coordinated
effort to address the lack of ministry collaboration for all its education projects.

No progress had been made on this objective because the mission’s technical staff
responsible for overseeing the Higher Education Project did not help the implementer to
open up lines of communication between the two ministries. This lack of involvement on
the part of the mission contributed to the Higher Education Project not achieving the
targets established for enhancing collaboration between these ministries. According to
USAID policy, Automated Directives System 202.3.5.3, mission officials are considered
official U.S. Government representatives, and can open lines of communication with host
governments. USAID officials play a critical coordination role with respect to their
partners and host country governments.

Staffing issues with both the mission and implementer also contributed to the lack of
progress toward coordination between the ministries. The mission had assigned five
different cognizant technical officers to oversee this project since the award date of
January 23, 2006, resulting in limited continuity of oversight. Also, review of the
cognizant technical officers’ correspondence and other administrative files indicates no
correspondence addressing the lack of collaboration between the ministries. The only
information indicating the mission’s involvement was in the implementer’s cover letter to
its April 1, 2008, monitoring and evaluation plan. In it, the implementer reported that in
February 2008, the director of USAID/Afghanistan’s Office of Social Sector Development
recommended that this issue be documented by the project as a matter of urgency since
a program audit was to be conducted in July 2008.

The implementer also experienced problems in staffing its chief of party position, the
executive director of the project. The project did not have a chief of party in place for the
first 9 months of project implementation. The project has had two different chief of party
officials since the project began, which likely averted management’s attention from this
objective.

The project design included collaboration between the two ministries as an objective
because of collaboration’s positive impact on the sustainability of project results. The
implementer’s most recent monitoring and evaluation plan reported that the reluctance
by officials from both ministries to collaborate on donor-funded efforts will be detrimental
to the Higher Education Project and other projects involved in teacher education.
According to implementing partner officials, enhanced collaboration between the two
ministries has been a challenge beyond the control of the project alone and therefore,
mission assistance is needed to make it happen.

       Recommendation No. 2:          We recommend that USAID/Afghanistan
       intervene with the Ministry of Education and Ministry of Higher Education
       to reach an agreement on appropriate collaborative actions to further the
       Higher Education Project.




                                                                                           9
Sustainability Plan
Needed for Centers
Summary: Sustainability is a core element of USAID program design. One of the
principles of the education strategy is for USAID/Afghanistan to ensure that Afghan
partners become providers of quality educational services without the need for
continuing USAID support. To accomplish a number of important higher education
results, the project implemented professional development centers that are a focal point
for activity at client institutions, and the development of these centers was given high
priority to ensure the visibility and credibility of the project’s work. However, upon
completion of the award, these centers will not be self-sustaining, because the program
design did not include an exit strategy with ways to keep these centers operating after
the award ended. Given the centers’ visibility, their closure would negatively affect the
public perception of U.S assistance and greatly diminish research and training
opportunities for university faculty resulting in possible reversals of long term project
impact.

Sustainability is a core element of USAID program design, as shown in the Agency’s
Strategic Plan Checklist which requires the strategic teams to address two questions: (1)
Is the achievement of sustainability for these institutions and processes realistic and within
the planned timeframe for the completion of USAID’s assistance to a specific strategic
objective and/or a country’s graduation from USAID assistance? (2) Will sustainability
plans be provided for key institutions and processes that will be necessary beyond the
timeframe of the USAID strategy? Further, one of the principles of the education strategy
is to focus on sustainable capacity and avoid using project resources to create
unsustainable subsidies. USAID/Afghanistan’s goal is to ensure that Afghan partners
become providers of quality educational services without the need for continuing USAID
support. These principles were to guide project design, implementation, and evaluation as
USAID/Afghanistan developed projects based on its education strategy.

To accomplish a number of important higher education results, the project implemented
professional development centers that are serving as a primary locus of higher
education activity. However, these centers will not be self-sustaining at the completion
of the award.

In 2006, the 16 institutions associated with the Higher Education Project did not have
space and facilities to provide the level and type of training to achieve project objectives.
The project implemented professional development centers to meet this need. Each
center is staffed with Afghan personnel and equipped with computer workstations,
multilingual keyboards, and Internet connectivity. The centers are also the location for
Higher Education Project training in pedagogy, information technology and English
language skills, and serve as a base of operations for the institutional development
teams. At the time of the audit, 9 of the 16 universities had professional development
centers.

The professional development centers are a focal point for activity at client institutions,
and the development of these centers was given high priority to ensure the visibility and
credibility of the project’s work. These activities will continue through the duration of the
mission’s agreement with the implementer. However, there are no plans to enable



                                                                                           10
continued operation of the professional development centers beyond the end date of the
agreement.

Center operations are funded through the Higher Education Project at a cost of
approximately $52,000 per year. Operating costs cover salaries for staff (including
development coordinators), translators, a multimedia person, and trainers and staff to
operate the centers. Other costs covered are electrical power (including generators and
oil to keep the centers running), Internet connectivity, and resources to produce and
disseminate educational publications.

These centers will not be self-sustaining after the end of the agreement because the
program design did not include an exit strategy with ways to keep these centers
operating after the award ended. At project initiation, the implementer’s response to the
mission’s request for applications did not address the long-term sustainability of these
centers in its program description.

The project ends January 31, 2011, and continued operation of the professional
development centers is unlikely without alternative funding or methods to provide
services. According to the dean of one of the 16 institutions assisted, these centers
provide one of the most important project impacts and are highly visible to university
faculty. Given their visibility, closing these centers would negatively affect the public
perception of U.S. assistance and greatly diminish research and training opportunities
for university faculty, resulting in possible reversals in long term project impact. As a
result, this audit makes the following recommendation.

       Recommendation No. 3:        We recommend that USAID/Afghanistan
       collaborate with the Academy for Educational Development and
       applicable Afghanistan universities to develop an exit strategy so that key
       services of professional development centers will continue after project
       completion.

Improvements in Technical
Oversight Necessary
Summary: USAID’s policy requires the agreement officer to designate a cognizant
technical officer to provide technical and administrative oversight of assistance awards.
The mission officials designated to provide technical and administrative oversight of the
project did not, in all respects, properly discharge their duties and responsibilities as
designated by the mission’s agreement officer. Repeated staff changes in the cognizant
technical officer position apparently caused this problem. As a result the mission has
not been substantially involved in the implementation of this project which has
contributed to the previous problem areas previously cited in this audit report.

USAID’s policy, Automated Directives System 303.2 (f) requires the agreement officer to
designate a cognizant technical officer to provide technical and administrative oversight
of assistance awards. In this capacity, the cognizant technical officer serves as a
liaison, directs communications with the recipient, and takes reasonable steps to:

   •	 Ensure that the recipient has submitted all required program and financial
      reports.


                                                                                      11
   •	 Monitor the recipient's progress in achieving the objectives of the program
      description.
   •	 Make written recommendations to the agreement officer when any changes to
      the program description, technical provisions, and or any other term or condition
      of the award are necessary.
   •	 Approve the recipient’s annual implementation plans, including annual monitoring
      and evaluation plans.

These responsibilities are formally assigned through a designation letter from the
agreement officer to the cognizant technical officer. When mission officials are assigned
cognizant technical officer responsibilities they receive a number of mission orders
reiterating their financial and programmatic responsibilities.

The mission officials designated to provide technical and administrative oversight of the
project did not, in all respects, properly discharge their duties and responsibilities as
designated by the mission’s agreement officer. Technical and administrative oversight
were not properly administered in the following main areas:

Approval of annual implementation and monitoring and evaluation plans – The
implementer submitted annual work plans and versions of its monitoring and evaluation
plans, the most current of which was dated February 13, 2008, (revised April 8, 2008).
Implementing officials commented that they never received official approval of these
plans and therefore worked under the assumption that the mission accepted the plans
as submitted.

Monitoring the recipient’s progress – Since the start of the project in January 2006,
various activities took place at each of the 16 universities supported by the project.
However, monitoring of progress through site visits was limited. As of June 30, 2008,
midway through project implementation, mission cognizant technical officers had made
only two site visits, both to the same location, Herat, in January and November 2007.

Ensuring that the recipient submitted all required financial reports – The cognizant
technical officer’s activity work file should include copies of the recipient’s financial
documentation to support financial management of the project.             The Office of
Management and Budget quarterly Financial Status Report (Standard Form 269) for
recipients of federal grants is a critical document for inclusion. However, these
documents were not complete in the file; the technical office had to request copies of the
forms from the implementer to satisfy the audit’s documentation request.

One reason why the mission has experienced these problems is because of the constant
turnover in technical staff assigned to oversee this project. The principal mission official
who assisted with this audit was designated cognizant technical officer in early
July 2008, approximately 3 weeks before the start of the audit. In all, as of August 2008,
five different USAID/Afghanistan staff members served as cognizant technical officers in
the 30 months of project implementation. Because of this frequent staff turnover, no one
at the mission had historical knowledge of the project at the time of the audit.

The designation letter states that the cognizant technical officer files serve as the
primary tools for carrying out their duties and responsibilities. It also stresses that
inadequate files impede the ability of current and successor cognizant technical officers


                                                                                         12
to manage the cooperative agreement and may therefore jeopardize the program for
which it was awarded. Overall, past cognizant technical officers for the Higher
Education Project did not fulfill their responsibilities by maintaining such files.

As a result, the mission has not been substantially involved in the implementation of this
project which has contributed to the problem areas cited previously in this audit report.
Further, the implementer has managed and implemented the activities as it deemed
necessary, which may or may not always be in the best interest of USAID’s intended
goals and objectives.

Improved technical oversight by each of the incumbent cognizant technical officers
would mitigate the risk of not having a body of knowledge on the recipient’s progress in
achieving the objectives of the program. This would also ensure that the recipient
submits all required administrative, performance, and financial reports, and that the
USAID-funded activities conform to the terms and conditions of the award. Therefore,
the audit makes the following recommendation.

       Recommendation No. 4:          We recommend that USAID/Afghanistan
       implement appropriate procedures to strengthen (1) project monitoring,
       (2) review and approval of project documents, and (3) maintenance of the
       cognizant technical officer project file for the Higher Education Project.




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Afghanistan agreed with the findings and
recommendations. Based on the Regional Inspector General/Manila’s review of the
mission’s comments and planned actions, we determined that management decisions
have been reached on recommendations one, two and three. Further, based on the
actions already taken by the mission we determined that final action has been taken on
recommendation four.

In response to recommendation number one, the mission stated that on
November 17, 2008, the cognizant technical officer reached an agreement with the
Academy for Educational Development, implementer of the Higher Education Project
(the project), to jointly define critical performance indicators and to incorporate data
collection directly into the acquisition mechanism. Further, a revised monitoring and
evaluation plan will be submitted by the implementer for review on or before
December 31, 2008, which the mission anticipates approving by mid-February 2009.

In regards to recommendation number two, the mission stated that initial efforts to
establish cooperation between the Afghan Ministries of Education and Higher Education
took place during the project sponsored Teacher Standards Conference held
November 17 and 18, 2008. Representatives from both ministries attended, as well as
rectors from the 16 pedagogical universities and Kabul Education University. At this
conference a memorandum of understanding was drafted among the Ministries of
Education and Higher Education, the implementer, and USAID confirming the adoption
of secondary and higher education standards of teacher education. The memorandum
is expected to be signed by January 2009.

With respect to recommendation number three, the mission stated that from
November 12 to 13, 2008 the project partners (the implementer, University of
Massachusetts, and University of Indiana) held a consortium meeting where they
discussed mechanisms to ensure the sustainability of each of the 16 professional
development centers expected to be operational by project completion. The results of
this meeting will be presented to the mission by December 1, 2008. The agreed-upon
mechanism is expected to be in place by January 31, 2011. Finally, the mission expects
a sustainability plan (exit strategy), to be completed by February 28, 2009.

Regarding recommendation number four, the mission stated that the short-term staff
assignments prevalent in Afghanistan prevent a cognizant technical officer term of more
than one year. However, the mission also acknowledges that cognizant technical officer
turnover for the project had been unacceptably high, but that it anticipates that the
current cognizant technical officer will remain in place until August 2009, and that it will
make every effort to curtail turnover. It is expected that a longer-term cognizant
technical officer will alleviate the project management issues cited by the audit.

USAID/Afghanistan’s written comments on the draft report are included in their entirety
as appendix II to this report.



                                                                                         14
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s Higher Education Project (project) was achieving its
planned results, and what the impact has been.

In January 2006, USAID/Afghanistan awarded a 5-year, $38 million cooperative
agreement to the Academy for Educational Development (implementer) to support its
Afghanistan Higher Education Project. As of June 30, 2008, 30 months into the 60-month
project, the mission had obligated $23 million and disbursed $14 million in support of this
project.

The audit was performed in Afghanistan from July 23, to August 6, 2008, and covered
the project activities implemented by Academy for Educational Development from
January 2006 to June 2008. In Kabul, fieldwork was conducted at USAID/Afghanistan
and at the implementer’s offices. We also conducted fieldwork at Kabul University and
the Kabul Education University both located in Kabul, and at the Balkh University in
Mazar-e-Sharif, Balkh province. Because of security restrictions, we were not able to
pursue our planned site visit to Herat University. The audit also involved meeting with
ministry officials in the Government of Afghanistan’s Ministry of Education and Ministry
of Higher Education.

We reviewed and analyzed the activities supporting all nine project objectives that the
implementer reported to the mission. The mission relies on this performance data to
report the number of university professors, deans, and rectors trained under its
education strategy.

As part of the audit, we assessed USAID/Afghanistan’s significant internal controls in
place to monitor the project activities. The assessment included controls related to whether
the mission (1) conducted and documented site visits to evaluate progress and monitor
quality, (2) required and approved recipient work plans, (3) reviewed progress reports
submitted by the implementer, and (4) compared the implementer’s reported progress to
planned progress and the mission’s own evaluations of progress. We also reviewed the
mission’s annual self-assessment of internal controls in accordance with the Federal
Managers’ Financial Integrity Act. Finally, we reviewed relevant prior audit reports.

We also assessed significant internal controls used by the implementer to monitor its
implementation of project activities. Specifically, we reviewed how the implementer
ensured compliance by its staff with project planned activities and timeframes.




                                                                                         15
                                                                            APPENDIX I 



Methodology
To answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan, the Academy for Educational Development, the Government of
Afghanistan’s counterpart ministries (Ministry of Higher Education and Ministry of
Education), and project beneficiaries. We also reviewed and analyzed relevant
documents at both the mission and the implementer. This documentation included
annual work plans, the agreement and its modifications, site visit and other monitoring
reports, progress reports, and financial reports and records.

Regarding the monitoring and evaluation systems at the mission and implementer, we
reviewed the systems to determine if results were being captured. We then judgmentally
sampled results reported for individual indicators and compared these results against
supporting documentation. For each selected performance indicator, we established the
following materiality threshold criteria to measure progress made in the program:

   • 	 The planned result would be achieved if the target number was met.

   • 	 The planned result would be partly achieved if progress was made toward
       meeting the target number.

   • 	 The planned result would not be achieved if no progress was made toward
       meeting the target number.




                                                                                    16
                                                                             APPENDIX II 




MANAGEMENT COMMENTS




ACTION MEMORANDUM FOR THE MISSION DIRECTOR


TO:                   Catherine M. Trujillo, RIG/Manila

From:                 Michael J. Yates, Ph.D., Mission Director /s/

DATE:                 November 20, 2008

SUBJECT:              Draft Report on the Audit of USAID/Afghanistan’s Higher
                      Education Project (HEP); (Audit Report No. 5-306-09-00X-P)

REFERENCE:            APegues/MYates memo dated October 21, 2008

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism exhibited by the
audit team during the performance of the field work. We are providing confirmation of
the actions that have been taken or are planned to be taken to address the four audit
recommendations.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan determine the
key indicators to measure and report results and revise the indicators at the
implementer level, the mission level, or both, to more accurately link the activity
data to the mission planned results.

The Mission agrees with this recommendation.

Action Taken:

The Cognizant Technical Officer (CTO) has reached agreement with the Academy for
Educational Development (AED), implementer of the Higher Education Project (HEP), to
jointly define critical performance indicators and to incorporate data collection directly
into the acquisition mechanism. The review and revision of performance indicators was
initiated in a meeting on November 17, 2008 that was participated in by AED’s Chief of
Party (COP), AED’s Monitoring and Evaluation (M&E) expert, USAID’s CTO and the
Senior Education Specialist and Chair of the USAID Education Data Working Group in
Washington, D.C. who is currently in Afghanistan to review the Mission’s Education
Performance Monitoring Plan (PMP) and PMPs for all education projects.



                                                                                          17
                                                                            APPENDIX II 



Planned Action:

A draft revision of the M&E plan will be submitted by AED for USAID’s review on or
before December 31, 2008. After Mission review, it is anticipated that the approved
M&E plan will be implemented by mid-February 2009. By March 15, 2009, the Mission
will have assessed the Higher Education Project’s implementation of the approved M&E
plan.

The target date for closure of this recommendation is March 15, 2009. We therefore
request RIG/Manila’s concurrence that a management decision has been reached.

Recommendation No. 2: We recommend that USAID/Afghanistan intervene with
the Ministry of Education and Ministry of Higher Education to reach an agreement
on appropriate collaborative actions to further the higher education project.

The Mission agrees with this recommendation.

Action Taken:

As a first step toward providing the essential Mission assistance toward reaching this
objective, USAID/Afghanistan’s Office of Social Sector Development (OSSD) met with
the new Minister of Education on November 9, 2008, thus opening a pathway of
communication for the CTO, who will visit the Minister with the HEP Chief of Party before
the end of November 2008. Both HEP and the CTO currently have well-established
relationships with the Ministry of Higher Education (MOHE) including the Minister
himself.

Planned Action:

As an initial effort to establish cooperation between the two ministries, HEP sponsored a
Teacher Standards Conference on November 17 and 18, 2008. Representatives from
both the Ministry of Education and the Ministry of Higher Education attended, as well as
rectors from the 16 pedagogical universities and Kabul Education University. A
Memorandum of Understanding (MOU) among the Ministry of Education (MOE), the
Ministry of Higher Education (MOHE), HEP and USAID confirming the adoption of
secondary and higher education standards of teacher education has been drafted and is
expected to be signed by January 2009.

This MOU is crucially important in moving towards greater sustainability, quality and
professionalism in the area of teacher preparation as it will formalize a shared vision of
the teaching profession in Afghanistan and will initiate formal cooperation between the
MOE and MOHE by forming Standards Committees at both the institutional and
Ministerial levels which are responsible for implementation and evaluation of the
standards.

The Mission will continue to work with AED to foster the collaboration between HEP and
the MOE and MOHE established by the participation of all parties in the Teacher
Standards Conference by requesting that each ministry assign a Deputy Minister to
attend an ongoing series of meetings with the HEP Chief of Party and the CTO to
explore further avenues of collaboration.



                                                                                       18
                                                                               APPENDIX II 




Since the CTO has reached agreement with HEP to jointly reinstate the critical objective
of raising the level of cooperation between the MOE and the MOHE as a key to
sustainability of project results, and has initiated actions to ensure the successful
attainment of this recommendation, we therefore request RIG/Manila’s concurrence that
a management decision has been reached. Closure will be requested as soon as a
MOU is executed among MOE, MOHE, HEP and USAID. The target completion date is
February 28, 2009.

Recommendation No. 3: We recommend that USAID/Afghanistan collaborate with
the Academy for Educational Development and applicable Afghanistan
universities to develop an exit strategy so that key services of professional
development centers will continue after project completion.

The Mission agrees with this recommendation.

Action Taken:

The Academy for Educational Development (AED) and USAID/Afghanistan have begun
a series of meetings designed to put in place by January 31, 2011, a mechanism for
ensuring the sustainability of each of the 16 Professional Development Centers (PDCs)
expected to be operational by that date.

To this end, a consortium meeting on November 12 -13, 2008, brought together the HEP
partners (AED, University of Massachusetts, and University of Indiana) to discuss
development of a comprehensive sustainability plan. The results of this meeting will be
presented to the Mission by December 1, 2008.

Options currently being explored include a proposal that the Ministry of Higher Education
actively pursue a partnership with the private sector to ensure sustainability. Although
initially reluctant, the Minister seems to be more willing to discuss the use of private
funds as both HEP and the Mission stress the benefits such a partnership would bring.
Roshan Corporation has made an offer to support the Afghan Masters of Education
(AME) from 2011; after an initial refusal to even consider the offer, the MOHE is now
willing to engage in meetings with Roshan.

Finally, HEP has identified key Afghan trainers at each PDC to receive accelerated
instruction so that they can carry forward the work of HEP employed trainers when the
project ends in 2011.

Planned Action:

HEP, with Mission encouragement and support, is developing a business plan for the
establishment of the International Computer Driving License (ICDL) for each of the 16
institutes so that they can offer revenue generating computer training. Initial
investigation of the feasibility of for-profit English as a Foreign Language instructional
centers at the PDCs is underway.

We request RIG/Manila’s concurrence that a management decision has been reached.
Closure will be requested upon completion of a comprehensive sustainability plan on or
about February 28, 2009.


                                                                                             19
                                                                                APPENDIX II 



Recommendation No. 4: Planned Action: We recommend that USAID/Afghanistan
implement appropriate procedures to strengthen (1) project monitoring, (2) review
and approval of project documents and (3) maintenance of the Cognizant
Technical Officer project file for the Higher Education Project.

The Mission agrees with this recommendation.

Action Taken:

It is anticipated that the current CTO will remain in place until August 2009. The Mission
requests the understanding of RIG/Manila that the short-term staff assignments currently
prevalent in Afghanistan make a CTO term of more than one year not feasible in all
cases. The Mission does acknowledge, however, that the CTO turnover relating to the
HEP project had been unacceptably high, and the Mission will make every effort to
curtail turnover.

It is anticipated that a longer-term CTO will have a direct impact on (1) above, project
monitoring. The current CTO maintains almost daily telephone and/or email contact with
HEP’s management. In addition, weekly meetings are held on an established basis.
Such meetings review project progress and problems, and serve to immediately address
areas of concern, either on the part of the Mission or HEP.

The current CTO has moved all relevant documents into the project files, and updates
such files on a weekly basis, thus addressing (3) above, maintenance of the Cognizant
Technical Officer project file for the Higher Education Project.

The Education Team Leader, newly appointed to the Mission, has assumed CTO
supervision, thus assuring the above initiatives are followed through.

Planned Action:

The current CTO will submit written comments on any and all documents received in a
timely and complete manner, thus addressing (2) above, review and approval of project
documents. In the absence of the CTO, the designated alternate is charged with offering
the same service to HEP, further ensuring that the review and approval process is
maintained to the highest standard.

The Mission acknowledges that field visits to HEP sites had been lacking in the past.
However, it should be noted that the inability of CTOs to conduct adequate project
monitoring visits due to security concerns has been reported as a significant deficiency
in the Mission’s annual FMFIA report since FY 2002. Travel restrictions due to weather,
lack of availability of air service and the inadvisability of road travel in addition to over­
riding safety and security concerns often make site visits on the part of the expatriate
CTO impossible to carry out.

To mitigate risks associated with the lack of site visits, the Mission plans to send Afghan
nationals to perform site visits when the expatriate CTO is unable to visit a range of the
16 sites. Provincial Reconstruction Teams will also be regularly consulted regarding
security and other issues that a constant and consistent presence might note with
increased awareness.



                                                                                            20
                                                                            APPENDIX II 




The Mission believes that this restructured approach contributes directly to strengthening
HEP in the areas designated. We therefore request concurrence that a management
decision has been reached on this recommendation. By February 28, 2009, the Mission
will have implemented further corrective measures to improve project monitoring,
facilitate document approvals, and maintain adequate CTO files.




                                                                                       21
                                                                                                                                APPENDIX III


Table A-1: Project Indicators and Cumulative Targets Through June 30 of the Fiscal Year Ending Sept. 30, 2008
Component 1: Improved preparation of teachers at Afghan faculties of education in universities and 4-year teacher training
institutions.
                                                                                                                                Status as of
                                                                                                     Cumulative
               Objective                                      Indicator                                                        June 30, 2008
                                                                                                 Target Through 2008
                                                                                                                                Achieved?
                                          Professional Development Centers (PDCs)                           9                       Yes
Increased adoption of improved
                                          functioning to support teacher educators.
pedagogical methods.
                                          In country teacher education pedagogy training            95 sessions and               Partial
                                          provided.                                                1,040 participants.
                                                                                                Design of content training         Yes
                                                                                                        program.

                                          In-country teacher education training, on subject     Development of part 1 of           Yes
                                          matter content pedagogy training provided.                 Module one.
Increased rigor and depth of
knowledge in content areas.                                                                    Delivery of part 1 of module
                                                                                                           one.                    No
                                                                                               11 started graduate degree          Yes
                                          Study abroad activities, including U.S. and third   program in Indiana University.
                                          country certificate and graduate degree
                                          programs in the field of education.                    16 completed certificate          Yes
                                                                                                  program in Singapore.
Increased English Language                In-country English Language instruction training     314 individuals participating       Yes
proficiency and IT skills among faculty   provided.                                                  and completing.
members.                                  In-country ICT training provided for teaching and    325 individuals participating       Yes
                                          research purposes in support of instruction.               and completing.
                                          Papers and academic materials developed by                       30                      Yes
                                          teacher educators who have participated in HEP
Enhanced capacity of faculty members
                                          professional development activities.
for intellectual and academic inquiry.
                                          Number of participants in Afghan Master’s                    22 started.                 Yes
                                          program.
                                          Development of professional associations and          9 functional management,           Yes
Increased professionalism in faculties
                                          committees which are active with membership            membership and events
of education.
                                          and events.                                                    achieved.




                                                                                                                                               22
                                                                                                                                         APPENDIX III


Component 2: Improved administrative and policy framework to sustain quality teaching, learning, and a culture of excellence.
                                                                                                                                                      Status as of
                                                                                                                  Cumulative                           June 30,
            Objective                                         Indicator
                                                                                                              Target Through 2008                        2008
                                                                                                                                                      Achieved?
                                     Institutional development activities such as workshops and                   6 sessions and                         Partial
                                     seminars provided to rectors, deans, and department                         253 participants.
                                     chairs (deans) to foster enhanced administrative capacity
                                     and clarity vis-à-vis professional roles.
                                                                                                       7 started graduate degree program in
Improved administrative                                                                                                 UMass.                               Yes
competencies and clear               Study abroad activities, including U.S. and third country                  18 in ID Study Tour I.                       Yes
professional roles for deans and     degree, certificate or short-term study tour programs in the        6 in Afghan Master Study Tour 1.                    Yes
department heads.                    field of education institution administration.                             18 in ID Study Tour II.                     Partial
                                                                                                               18 in NLD Study Tour I.                       Yes
                                                                                                              18 in NLD Study Tour II.                       No
                                     Institutional development plans that address                   USAID nine physical structure tender ready
                                     administrative structures, facilities, and resources needed      for 9 sites. Implementation of plans of
                                     to better support education faculty developed at the 16                     institutions initiated.                     No
                                     targeted Afghan universities.
                                                                                                       White paper (Standard for Teacher




                                                                                                                                            

                                                                                                    Education in Afghanistan’s Institutions of

                                                                                                     Higher Education) presented to MoHE,




                                                                                                                                             

                                                                                                                rectors and deans.                           Yes
                                     Assessment conducted, recommendations on teacher




                                                                                                                                     

                                                                                                      The white paper submitted to MOHE
                                     development reforms submitted and considered by
Policies and standards for teacher                                                                               minister approval.                          Yes
                                     MOHE, and MOHE assisted by HEP in developing
certification established.                                                                           Consultative Validation Completed and
                                     process for reviewing, adopting, and implementing select




                                                                                                                                              

                                                                                                       Standard finalized and accepted as

                                     reforms.
                                                                                                    National Standards of Teacher Education.                 No




                                                                                                                                                  

                                                                                                        18 faculty members participated in
                                                                                                     Standard and Accreditation Study Tour.                  No

Enhanced collaboration between
MOHE and MOE regarding training      No indicator.                                                                    None.                                  No
and certification of teachers.
Improved mechanism for                                                                                National curriculum review committee                   No
systematic review and modification   No defined indicator.                                            established and responsible for new
of teacher preparation curriculum.                                                                                   curricula.




                                                                                                                                                      23

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
